ATTORNEY GENERAL

STATE OF MONTANA

Department of Justice

Joseph P. Mazurck Justice Bldg.
215 North Sanders

PO. Box 201401

Helena, MT 59620-1401

‘Tim Fox
Attorney General

 

March 9, 2020

Mr. Danny Bickell

Deputy Clerk

Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

Re: National Association for Gun Rights v. Mangan, No. 19-767, Extension
Request Unopposed

Dear Mr. Bickell,

On Friday, March 6, 2020, Respondent requested a second 30-day extension to April
27, 2020, in which to file a brief in opposition to the petition for certiorari in this
case. Rule 30(4). Respondent informed the Court that counsel had not yet received a
response as to Petitioner’s position. After Respondent’s motion was filed, however,
Petitioner’s counsel informed the State that the Petitioner does not oppose the
request for an extension.

Thank you for your assistance.

Sincerely,

nf , & qT yp
AY Che | - (ef-——__

MATTHEW T. COCHENOUR
Acting Solicitor General
Counsel for Respondent

ec: David Warrington, Matthew Monforton, Counsel for Petitioner

TELEPHONE: (406) 444-2026 FAX: (406) 444-3549 E-MAIL: contactdoj@mt.gov WEB: mtdoj-gov

MONTANA DEPARTMENT OF JUSTICE
Legal Services Division * Division of Criminal Investigation * Highway Patrol Division * Forensi
Gambling Control Division * Motor Vehicle Division * Information Technology Services Division * €

   
 

Science Division
tral Services Division
